                                           November 8, 2012


The Honorable Michael J. Astrue
Commissioner

The Chief Financial Officers Act of 1990 (CFO) (Pub. L. No. 101-576), as amended, requires
that the Social Security Administration’s (SSA) Inspector General (IG) or an independent
external auditor, as determined by the IG, audit SSA's financial statements in accordance with
applicable standards. Under a contract monitored by the Office of the Inspector General (OIG),
Grant Thornton, LLP, an independent certified public accounting firm, audited SSA's Fiscal Year
(FY) 2012 financial statements. Grant Thornton, LLP, also audited the FY 2011 financial
statements presented in SSA’s FY 2012 Performance and Accountability Report for comparative
purposes. This letter transmits the Grant Thornton, LLP, Independent Auditor’s Report on the
audit of SSA’s FY 2012 financial statements. Grant Thornton, LLP’s, Report includes the
following.

•   Opinion on Financial Statements
•   Opinion on Management's Assertion About the Effectiveness of Internal Control
•   Report on Compliance and Other Matters

Objective of a Financial Statement Audit

The objective of a financial statement audit is to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements. An audit also
includes an assessment of the accounting principles used, and significant estimates made, by
management as well as an evaluation of the overall financial statement presentation.

Grant Thornton, LLP, conducted its audit in accordance with auditing standards generally
accepted in the United States; Government Auditing Standards issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04,
Audit Requirements for Federal Financial Statements. The audit included obtaining an
understanding of the internal control, testing and evaluating the design and operating
effectiveness of the internal control, and performing such other procedures as considered
necessary under the circumstances. Because of inherent limitations in any internal control,
misstatements due to error or fraud may occur and not be detected. The risk of fraud is inherent
to many of SSA’s programs and operations, especially within the Supplemental Security Income
program. In our opinion, people outside the organization perpetrate most of the fraud against
SSA.



                WEB: OIG.SSA.GOV | FACEBOOK: OIGSSA | TWITTER: @THESSAOIG | YOUTUBE: THESSAOIG
                          6401 SECURITY BOULEVARD | BALTIMORE, MD 21235-0001
Page 2 – The Honorable Michael J. Astrue


Audit of Financial Statements, Effectiveness of Internal Control, and Compliance with
Laws and Regulations

Grant Thornton, LLP, issued an unqualified opinion on SSA’s FY 2012 and 2011 financial
statements. However, Grant Thornton, LLP, stated SSA had not maintained effective internal
control over financial reporting based on criteria under the Federal Manager’s Financial
Integrity Act of 1982 (FMFIA).

In its audit, Grant Thornton, LLP, identified five deficiencies in internal control that, when
aggregated, are considered to be a material weakness in controls over information security.
Specifically, Grant Thornton, LLP’s, testing disclosed

1. lack of monitoring controls and implementation of policy related to the configuration and
   content of information on SSA Intranet Webpages,
2. lack of controls related to the identification and monitoring of high-risk programs operating
   on the mainframe,
3. The Agency’s vulnerability testing was not sufficient to identify critical weaknesses in SSA’s
   information technology environment,
4. lack of a comprehensive profile and access recertification program, and
5. lack of appropriate controls to prevent programmer access to the production environment.

In addition to the material weakness, Grant Thornton, LLP, noted additional deficiencies in
internal control that, when aggregated, are considered to be a significant deficiency related to
weaknesses in internal control related to monitoring activities and overall control environment.
Specifically, Grant Thornton, LLP’s, testing disclosed

1. lack of consideration and resolution of audit findings that were reported in the Management
   Letter for the past two FYs;
2. lack of a comprehensive process for SSA’s quality review feedback forms; and
3. lack of appropriate documentation for disability reviews; various approvals for certain
   transactions; and Overpayments detection and associated Waivers.

Grant Thornton, LLP, identified no reportable instances of noncompliance with the laws,
regulations, or other matters tested.

OIG Evaluation of Grant Thornton, LLP, Audit Performance

To fulfill our responsibilities under the CFO Act and related legislation for ensuring the quality
of the audit work performed, we monitored Grant Thornton, LLP’s, audit of SSA's FY 2012
financial statements by
Page 3 – The Honorable Michael J. Astrue


•   reviewing Grant Thornton, LLP’s, audit approach and planning;
•   evaluating its auditors qualifications and independence;
•   monitoring the audit’s progress at key points;
•   examining Grant Thornton, LLP’s, documentation related to planning the audit, assessing
    SSA's internal control, and substantive testing;
•   reviewing Grant Thornton, LLP’s, audit report to ensure compliance with Government
    Auditing Standards and OMB Bulletin No. 07-04;
•   coordinating the issuance of the audit report; and
•   performing other procedures we deemed necessary.

Grant Thornton, LLP, is responsible for the attached auditor’s report, dated November 8, 2012,
and the opinions and conclusions expressed therein. The OIG is responsible for technical and
administrative oversight regarding Grant Thornton, LLP’s, performance under the terms of the
contract. Our review, as differentiated from an audit in accordance with applicable auditing
standards, was not intended to enable us to express, and accordingly we do not express, an
opinion on SSA’s financial statements, management’s assertions about the effectiveness of its
internal control over financial reporting, or SSA’s compliance with certain laws and regulations.
However, our monitoring review, as qualified above, disclosed no instances where Grant
Thornton, LLP, did not comply with applicable auditing standards.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
this report to appropriate congressional committees with oversight and appropriation
responsibilities over SSA. In addition, we will post a copy of the report on our public website.




                                              Patrick P. O’Carroll, Jr.
                                              Inspector General

Enclosure
                                                                                                                Audit  Tax  Advisory
                                                                                                                Grant Thornton LLP
                                                                                                                333 John Carlyle Street, Suite 500
                                                                                                                Alexandria, VA 22314-5745
                                                                                                                T 703.837.4400
                                                                                                                F 703.837.4455
                                                                                                                www.GrantThornton.com




Honorable Michael J. Astrue
Commissioner
Social Security Administration



                                                       Independent Auditor’s Report

In our audit of the Social Security Administration (SSA), we found:

                         The consolidated balance sheets of the SSA as of September 30, 2012 and 2011, and the related
                          consolidated statements of net cost and changes in net position, and the combined statements of
                          budgetary resources for the years then ended, and the statements of social insurance as of
                          January 1, 2012 and January 1, 2011 and statement of changes in social insurance amounts for the
                          periods January 1, 2011 to January 1, 2012 and January 1, 2010 to January 1, 2011 are presented fairly,
                          in all material respects, in conformity with accounting principles generally accepted in the United
                          States of America;

                         SSA did not maintain effective internal control over financial reporting as of September 30, 2012; and

                         No reportable instances of noncompliance with laws, regulations, or other matters tested.

OPINION ON FINANCIAL STATEMENTS
We have audited the accompanying consolidated balance sheets of the SSA as of September 30, 2012 and 2011,
and the related consolidated statements of net cost and changes in net position, and the combined statements of
budgetary resources for the years then ended, and the statements of social insurance as of January 1, 2012,
January 1, 2011 and January 1, 2010 and the statements of changes in social insurance amounts for the periods
January 1, 2011 to January 1, 2012 and January 1, 2010 to January 1, 2011. These financial statements are the
responsibility of SSA’s management. Our responsibility is to express an opinion on these financial statements
based on our audits. The statements of social insurance as of January 1, 2009 and 2008 were audited by other
auditors whose reports dated November 9, 2009 and November 7, 2008 expressed an unqualified opinion on
those statements.

We conducted our audits in accordance with auditing standards generally accepted in the United States of America
established by the American Institute of Certified Public Accountants (AICPA); the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General of the United States;


Grant Thornton LLP
U.S. member firm of Grant Thornton International Ltd
                                                                                                                             2


and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.
Those standards require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in the financial statements. An audit also includes assessing the
accounting principles used and significant estimates made by management, as well as evaluating the overall
financial statement presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above and presented on pages 110 through 144 of this
Performance and Accountability Report (PAR), present fairly, in all material respects, the financial position of SSA as of
September 30, 2012 and 2011, and its net cost of operations, changes in net position, and budgetary resources for
the years then ended, and the financial condition of its social insurance program as of January 1, 2012 and
January 1, 2011 and changes in social insurance amounts for the period January 1, 2011 to January 1, 2012, in
conformity with accounting principles generally accepted in the United States of America.

However, misstatements may nevertheless occur in other financial information reported by SSA and may not be
prevented or detected because of the deficiencies noted in the opinion on internal control below.

As discussed in Note 17 to the financial statements, the statements of social insurance present the actuarial present
value of the SSA's estimated future income to be received from or on behalf of the participants and estimated
future expenditures to be paid to or on behalf of participants during a projection period sufficient to illustrate
long-term sustainability of the social insurance program. In preparing the statement of social insurance,
management considers and selects assumptions and data that it believes provide a reasonable basis for the
assertions in the statements. However, because of the large number of factors that affect the statement of social
insurance and the fact that future events and circumstances cannot be known with certainty, there will be
differences between the estimates in the statement of social insurance and the actual results, and those differences
may be material.

OPINION ON INTERNAL CONTROL

We have audited SSA’s internal control over financial reporting as of September 30, 2012, based on criteria
established under 31 U.S.C. 3512(c), (d), commonly known as the Federal Managers’ Financial Integrity Act of 1982
(FMFIA). We did not test all internal controls, relevant to the operating objectives broadly, defined by FMFIA.
SSA’s management is responsible for maintaining effective internal control over financial reporting and for its
assertion of the operating effectiveness of internal control over financial reporting included in the accompanying
FMFIA Assurance Statement on page 47 of this PAR. Our responsibility is to express an opinion on SSA’s
internal control over financial reporting based on our audit.

We conducted our audit in accordance with attestation standards established by the AICPA; the standards
applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States; and OMB Bulletin No. 07-04, as amended. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether effective internal control over financial reporting was
maintained in all material respects. Our audit included obtaining an understanding of internal control over
financial reporting, assessing the risk that a material weakness exists, testing and evaluating the design and
operating effectiveness of internal control based on the assessed risk, and performing such other procedures as we
considered necessary in the circumstances. We believe that our audit provides a reasonable basis for our opinion.




Grant Thornton LLP
U.S. member firm of Grant Thornton International Ltd
                                                                                                                           3


An Agency’s internal control over financial reporting is a process affected by those charged with governance,
management, and other personnel, designed to provide reasonable assurance regarding the preparation of reliable
financial statements in accordance with generally accepted accounting principles. An Agency’s internal control
over financial reporting includes those policies and procedures that ( 1 ) pertain to the maintenance of records that,
in reasonable detail, accurately and fairly reflect the transactions and dispositions of the assets of the Agency;
( 2 ) provide reasonable assurance that transactions are recorded as necessary to permit preparation of financial
statements in accordance with generally accepted accounting principles, and that receipts and expenditures of the
Agency are being made only in accordance with authorizations of management and those charged with
governance; and ( 3 ) provide reasonable assurance regarding prevention, or timely detection and correction of
unauthorized acquisition, use, or disposition of the Agency’s assets that could have a material effect on the
financial statements.

Because of its inherent limitations, internal control over financial reporting may not prevent, or detect and correct
misstatements. Also, projections of any evaluation of effectiveness to future periods are subject to the risk that
controls may become inadequate because of changes in conditions, or that the degree of compliance with the
policies or procedures may deteriorate.

A deficiency in internal control over financial reporting exists when the design or operation of a control does not
allow management or employees, in the normal course of performing their assigned functions, to prevent or detect
and correct misstatements on a timely basis.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control over financial reporting
that is less severe than a material weakness, yet important enough to merit attention by those charged with
governance. We identified certain deficiencies in internal control related to benefit payment oversight that, in the
aggregate, are considered to be a significant deficiency.

A material weakness is a deficiency, or a combination of deficiencies, in internal control over financial reporting,
such that there is a reasonable possibility that a material misstatement of the Agency's financial statements will not
be prevented, or detected and corrected on a timely basis. We identified certain deficiencies in Information
Systems Controls that, in the aggregate, are considered to be a Material Weakness.

                                                       Material Weakness - Information Systems Controls

SSA’s business processes which generate the information included in financial statements are dependent upon the
Agency’s information systems. A comprehensive and effective internal control program over these systems is
critical to the reliability, integrity, and confidentiality of data while mitigating the risk of errors, fraud and other
illegal acts.

Overview
Management relies extensively on information systems operations for the administration and processing of the
Title II and Title XVI programs, to both process and account for their expenditures. Internal Controls over this
environment are essential for the reliability, integrity, and confidentiality of the program’s data and mitigate the
risks of error, fraud and other illegal acts.

Our internal control testing covered both general and application controls. General Controls encompass the
entity-wide security program (EWSP), access controls (physical and logical), change management, segregation of
duties, system software, and service continuity plans and testing. General controls provide the foundation for the


Grant Thornton LLP
U.S. member firm of Grant Thornton International Ltd
                                                                                                                                           4


integrity of systems, and combined with application level controls, are critical to ensure accurate and complete
processing of transactions and integrity of stored data. Application controls include controls over input,
processing of data, and output of data. Our audit included testing of the Agency’s mainframe, networks and
applications and was conducted at headquarters as well as Disability Determination Services Centers (DDS) and
Program Service Centers (PSC).

Deficiencies Noted in Information Systems
While the SSA has made efforts to strengthen controls over its systems and address the outstanding significant
deficiency in Information Security, our testing identified general control issues in both design and operation of key
controls. We noted weaknesses in the following areas:

        •        Entity Wide Security Program
        •        Access Controls
        •        Compensating Controls

Entity-Wide Security Program: These programs are designed to ensure that security threats are identified, risks
are assessed, control objectives are appropriately designed and formulated, relevant control techniques are
developed and implemented, and managerial oversight is consistently applied to ensure the overall effectiveness of
security measures. EWSPs afford management the opportunity to provide appropriate direction and oversight of
the design, development, and operation of critical system controls. Deficiencies in the programs can result in
inadequate access and configuration controls affecting mission-critical, system-based operations. Our testing
identified the following issues:

        •        Lack of monitoring controls and implementation of policy related to the configuration and content of information on SSA
                 intranet web pages.

                 During our testing we were able to obtain security and Personal Identifiable Information (PII) data that
                 was accessible due to the misconfiguration of SSA systems. While testing was terminated after gaining
                 control of a single server, the information obtained enabled us to take control of the SSA’s Windows
                 network. These issues increase the risk that sensitive data is accessible to unauthorized personnel which
                 may be used or disclosed inappropriately.

                 The Agency is currently in the process of implementing new software that will assist in the identification
                 of inappropriate information being posted.

        •        Lack of controls related to the identification and monitoring of high risk programs operating on the mainframe.

                 During the change management process, management does not perform an impact assessment to
                 determine security implications for significant mainframe programmatic changes. For example,
                 management does not perform assessments for changes to programs in the Authorized Program Facility
                 (APF) libraries (i.e. Services (SVCs), user SVCs, and exits). In addition, management does not have a
                 comprehensive process to periodically review the privileged programs added to the SSA mainframe
                 environment to ensure that all privileged programs have been approved, modified appropriately, and pose
                 no security risks.




Grant Thornton LLP
U.S. member firm of Grant Thornton International Ltd
                                                                                                                                                    5


                 Without performing specific assessments of the impact of program changes to the system security
                 framework, there is an increased risk that the security posture and controls may be bypassed or
                 compromised.

        •        Insufficient vulnerability testing is conducted by the Agency for the identification of critical weaknesses in their information
                 technology environment.

                 During our internal penetration testing we were able to gain access to restricted information and ultimately
                 assume control over a server without detection. Although via a different method, this is the second year
                 in a row we have been able to utilize an internal network drop to gain control of the SSA Windows system
                 without detection. Management’s failure to conduct robust enterprise focused penetration testing
                 increases the risk that unauthorized access may occur and go undetected, allowing privileged information
                 or critical infrastructure to be compromised.

                 The Agency currently performs security assessments related to specific implementations and projects but
                 does not conduct enterprise wide penetration testing (simulated attacks from a malicious user).

Access Controls: Access controls provide assurance that critical systems assets are physically safeguarded and
that logical access to sensitive applications, system utilities, and data is provided only when authorized and
appropriate. Access controls over operating systems, network components, and communications software are also
closely related. These controls mitigate the inherent risk that unauthorized users and computer processes cannot
access sensitive data. Weaknesses in such controls can compromise the integrity of sensitive data and increase the
risk that such data may be inappropriately accessed and/or disclosed. Our testing identified the following issues:

        •        Lack of a comprehensive profile and access recertification program.

                 Our testing disclosed that policies and procedures to periodically reassess the content of security access
                 profiles had been developed but not implemented consistently throughout the Agency. This issue
                 increases the risk of inappropriate access and user rights, which allows individuals an opportunity to
                 perform transactions or access restricted information outside of their job responsibilities. During our
                 testing we identified personnel with inappropriate access.

                 This is a recurring issue identified as part of the Significant Deficiency in prior years. The Agency is
                 working to remediate its profile and access recertification program and plans for a full implementation of
                 this control in Fiscal Year (FY) 2013.

        •        Lack of appropriate controls to prevent programmer access to the production environment.

                 Our testing identified programmers with unmonitored access to production data for a benefit payment
                 application. This is of heightened concern as this access did not exist in the prior fiscal year and based on
                 inquiry with management was caused by human error. This issue increases the risk that programmers
                 could make unauthorized changes to the production environment without detection and without a
                 comprehensive recertification process discussed above. There is no current control that would have
                 identified this error in a timely manner.

                 The Agency has implemented a secondary user ID process to allow programmers to access production
                 data through a highly monitored, time-limited process. During our testing we determined this control was


Grant Thornton LLP
U.S. member firm of Grant Thornton International Ltd
                                                                                                                                      6


                 not operating effectively. For example, we identified instances where programmers were issued a
                 secondary user ID; however, their access was not approved and reviewed for more than six months after
                 they accessed production.

                 While our testing did not disclose that any inappropriate changes were made to the production
                 environment, a risk existed.

Compensating Controls
Management has identified several areas of compensating controls to mitigate the risks related to the deficiencies
above; however, our testing identified control deficiencies for the majority of these controls. The following
highlights several of the control deficiencies identified related to these compensating controls:


        1. Change control
              • Our testing noted a failure of the operational effectiveness of the controls related to
                 documentation and approval of changes to financially relevant applications. This included both
                 routine and emergency changes.
        2. Physical access
              • During FY 2012, a comprehensive physical access recertification was not performed; including
                  access to the data center. Management is currently working to implement an automated process;
                  however, this was not in place during FY 2012.
                          •        Our testing identified multiple instances of control failures during our review of the SSA 4395
                                   Form process (the form used to request and approve physical access to SSA facilities). For
                                   example, we identified forms that did not include approval signatures, physical access justification,
                                   and disapproved employees that were provided physical access.
                          •        During testing of terminated contractors, we identified a control failure related to removing
                                   contractor physical access (from the physical access system) upon termination. Specifically, we
                                   noted instances where terminated contractors were identified as having active physical access
                                   during our testing.
                          •        During a related physical security audit, auditors identified a contracted network engineer was
                                   found unsuitable for contract employment at the SSA by the Office of Personnel Management.
                                   That contracted employee maintained physical access to the SSA facilities for approximately one
                                   year after the unsuitable determination was made. This employee was immediately removed from
                                   the contract upon notification to the appropriate SSA personnel.
        3. Logical access
              • Our testing identified control failures related to the appropriate use of the SSA 120 Forms (the
                  forms used to request and approve logical access to SSA systems and applications). Included in
                  these control failures were instances of new hires, transferred employees, state DDS employees,
                  and contracted employees.
                          •        During a related logical security audit, auditors identified a DDS system user ID (also known as a
                                   PIN) that was in use after the employee associated to the ID was terminated to access the system.
                                   Management confirmed that no transactions were executed with the terminated employee’s ID,
                                   but is currently investigating how this occurred.

Recommendations
In order to mitigate the risks of the issues noted in the material weakness, management should consider
implementing:



Grant Thornton LLP
U.S. member firm of Grant Thornton International Ltd
                                                                                                                          7


        •        Monitoring controls designed to identify configurations within the SSA network and systems environment
                 that are not in compliance with the SSA system configuration policy. In addition, management should
                 consider implementing controls to identify and track content on SSA intranet web pages that may pose a
                 risk to the security of SSA systems, or the confidentiality of SSA data;
        •        A comprehensive program to identify and monitor high risk programs operating on the
                 mainframe. Consider including the identification of programs that may pose security risks to the SSA
                 mainframe prior to them being loaded onto the production environment;
        •        Comprehensive enterprise-wide security vulnerability testing, including simulated penetration attacks, in
                 order to identify critical weaknesses in the information technology environment that may not be identified
                 by the current control processes.;
        •        A comprehensive profile and access recertification program; and,
        •        Additional controls to prevent unauthorized programmer access to the production environment.

                                                       Significant Deficiency - Benefit Payment Oversight

SSA has extensive operations geographically dispersed throughout the United States, spanning over 1,200 field
offices (FO), 10 regional offices (RO) and 52 state operated DDS offices. In order to ensure consistent processing
of transactions related to benefit payments across the numerous physical locations, SSA has detailed policies and
procedures as well as an internal control system related to authorization, payment, and continuation of benefit
payments. Adherence to policies and procedures are critical to decisions being made timely and correctly by the
Agency. In order to ensure compliance with these policies and procedures, management’s internal control
structure is designed to prevent and/or detect inaccuracies and deviations which can occur throughout the process
which relies heavily on human input and decisions.

Overview
Our testing identified control deficiencies that could impact the accuracy of benefit payments related to the
following components of internal control: Monitoring and Control Environment. These components are critical
to the overall function of the SSA control environment and are necessary to ensure the accuracy of benefits
payments in an organization where extremely high volumes of relatively low dollar amount transactions are
processed.

Monitoring and Control Environment Deficiencies
Our testing noted deficiencies in SSA Monitoring Controls and Control Environment in the key areas noted
below. Many of these exceptions have recurred over the past two fiscal years and have been reported in prior
Management Letters.

        CDRs - Continuing Disability Reviews (CDRs) are performed by management to determine if existing
        beneficiaries receiving payments based on disability continue to meet the medical eligibility criteria. This
        process is critical to the establishment of continued eligibility of beneficiaries receiving disability benefits and
        has been identified as a key control by management as part of their OMB Circular A-123 assessment process.
        Our testing of CDR cases determined that some CDRs were not documented in accordance with SSA policies,
        for example physician approvals of final determinations were missing. However, for our sample, we were able
        to obtain sufficient evidence to conclude the final CDR determinations met the medical criteria established by
        SSA.

        Improper documentation increases the risk of incorrect determinations and prevents the Agency from
        properly supporting decisions, impacting the accuracy and validity of SSA’s recorded benefit payments.


Grant Thornton LLP
U.S. member firm of Grant Thornton International Ltd
                                                                                                                               8



        Quality Assurance (QA) - The QA processes conducted by Office of Quality and Performance (OQP)
        reviews the work being performed through various workloads within the SSA, including a review of CDRs
        conducted. This process has been identified as a key control by management as part of their OMB
        Circular A-123 assessment process. Our testing of the QA processes related to the review of the CDRs
        conducted by the DDS determined the following:

                   •       Communication of detected errors to responsible parties for resolution and performance
                           improvement was not performed. By not communicating deficiencies noted, a key step in improving
                           overall performance and quality is circumvented.
                   •       QA reviews were not completed accurately based on SSA’s policies and procedures. Inaccurate
                           completion of QA reviews may result in ineligible beneficiaries receiving payments, which by statute,
                           SSA may not be able to terminate.
                   •       The QA process does not include procedures to update and verify SSA records outside of the QA
                           systems. The lack of updates and verification with beneficiary records may compromise decisions
                           made by management and lead to improper payments.

        SSA-93 Forms: SSA management has claims review processes in place within OQP. OQP processes are
        considered key controls by management for the oversight of benefit payments. When an OQP claim review
        detects a discrepancy or inaccuracy, a Quality Review Feedback Form (SSA-93 Form) is produced to notify the
        applicable office that a correction is needed. Our testing identified, SSA-93 Forms are not being completed
        timely, accurately or completely. In addition, the SSA does not have a comprehensive process to track
        outstanding SSA-93 Forms and determine accuracy or timeliness of completion.

        The lack of a comprehensive process related to identified findings negates the effectiveness of the OQP
        program and allows known payment errors to go uncorrected and inaccurate data to be maintained.

        Overpayments - Overpayments occur when beneficiaries receive payments beyond their entitled amount.
        Our testing noted deficiencies in the documentation maintained to support a number of the overpayments
        tested. In certain situations, system limitations cause historic data to be overwritten. Consequently, we were
        unable to reconstruct the overpayment amount for a number of sample items due to this limitation.

        The lack of documentation to support the overpayments impacts the Agency’s ability to meet its fiduciary
        duties to protect the assets of the trust funds and government general fund and support the accounts
        receivable balance on its financial statements.

Recommendations
In order to mitigate the risks of the issues noted in the significant deficiency, management should:

CDRs
  • Enforce existing policies and procedures around documentation of CDRs.
        •        Enhance enforcement procedures for DDSs which are not completing or documenting CDRs per policies
                 and procedures.




Grant Thornton LLP
U.S. member firm of Grant Thornton International Ltd
                                                                                                                       9


Quality Assurance
   • Enhance policies over QA to clearly define when a reviewer should document and provide feedback to
       users.
        •        Enforce existing policies and procedures and continue training over the correct completion of a QA
                 review.
        •        Implement procedures to update and verify SSA records outside of the QA systems based upon
                 information validated during the QA review.
SSA-93 Forms
   • Provide training and reminders to encourage timely and appropriate completion of SSA-93 Forms in
       accordance with SSA guidance.
        •        Implement management review in the RO and FO over completed SSA-93 Forms.
        •        Include reviews by Headquarters over timeliness and quality of completion of SSA-93s Forms.
Overpayments
   • Include procedures in the current On-site Control and Audit Reviews (OSCAR) program for determining
      whether overpayment information has been completely, accurately, and timely documented by field offices
      or PSCs within the appropriate systems of record.
        •        Implement changes that prevent overpayment information from being overwritten in the system.

In our opinion, because of the effect of the material weakness described above on the achievement of the
objectives of the control criteria, SSA has not maintained effective internal control over financial reporting as of
September 30, 2012, based on criteria established under FMFIA.
Specific disclosure of detailed information about these exposures might further compromise controls and are
therefore not provided within this report. Rather, the specific details of deficiencies noted are presented in a
separate, limited-distribution Management Letter.
We considered the material weakness identified above in determining the nature, timing, and extent of audit tests
applied in our audit of the 2012 financial statements, and this report does not affect the report above, which
expressed an unqualified opinion.

REPORT ON COMPLIANCE AND OTHER MATTERS
The management of SSA is responsible for compliance with laws and regulations. As part of obtaining reasonable
assurance about whether the basic financial statements are free of material misstatement, we performed tests of
compliance with laws and regulations, including laws governing the use of budgetary authority, government-wide
policies and laws identified in Appendix E of OMB Bulletin No. 07-04 as amended, and other laws and
regulations, noncompliance with which could have a direct and material effect on the financial statements. Under
the Federal Financial Management Improvement Act of 1996 (FFMIA), we are required to report whether the SSA’s
financial management systems substantially comply with the Federal financial management systems requirements,
applicable Federal accounting standards, and the United States Government Standard General Ledger at the
transaction level. To meet this requirement, we performed tests of compliance with FFMIA section 803(a)
requirements.

We did not test compliance with all laws and regulations applicable to SSA. We limited our tests of compliance to
the provisions of laws and regulations cited in the preceding paragraph of this report. Providing an opinion on
compliance with those provisions was not an objective of our audit and, accordingly, we do not express such an
opinion.


Grant Thornton LLP
U.S. member firm of Grant Thornton International Ltd
                                                                                                                  10


The results of our test of compliance disclosed no instances of noncompliance with laws and regulations or other
matters that are required to be reported under Government Auditing Standards or OMB Bulletin No. 07-04 as
amended and no instances of substantial noncompliance that are required to be reported under FFMIA.

OTHER INFORMATION
The Management’s Discussion and Analysis (MD&A) included on pages 5 through 52 and the Required
Supplementary Information (RSI) included on pages 151 through 162 of this PAR are not a required part of the
basic financial statements but are supplementary information required by the Federal Accounting Standards
Advisory Board and OMB Circular A-136, Financial Reporting Requirements. This required supplementary
information is the responsibility of management. We have applied certain limited procedures to the required
supplementary information in accordance with auditing standards generally accepted in the United States of
America established by the American Institute of Certified Public Accountants. These limited procedures consisted
of inquiries of management about the methods of preparing the information and comparing the information for
consistency with management’s responses to our inquiries, the basic financial statements, and other knowledge we
obtained during our audit of the basic financial statements. We do not express an opinion or provide any assurance
on the information because the limited procedures do not provide us with sufficient evidence to express an
opinion or provide any assurance.
Our audits were conducted for the purpose of forming an opinion on the basic financial statements taken as a
whole. The Schedule of Budgetary Resources included on page 149 of this PAR is supplementary information
required by OMB Circular No. A-136, Financial Reporting Requirements. This schedule and the consolidating and
combining information included on pages 145 to 148 of this PAR are not a required part of the basic financial
statements. Such supplementary information is the responsibility of management and was derived from and
relates directly to the underlying accounting and other records used to prepare the basic financial statements. The
information has been subjected to the auditing procedures applied in the audit of the basic financial statements and
certain additional procedures. These additional procedures included comparing and reconciling the information
directly to the underlying accounting and other records used to prepare the basic financial statements or to the
basic financial statements themselves, and other additional procedures in accordance with auditing standards
generally accepted in the United States of America established by the American Institute of Certified Public
Accountants. In our opinion, the supplementary information is fairly stated, in all material respects, in relation to
the basic financial statements as a whole.

The Commissioner’s Message on page 1 and the other accompanying information included on pages 2 through 4,
53 through 109, 150 and 177 to the end of this PAR, is presented for purposes of additional analysis and is not a
required part of the basic financial statements. Such information has not been subjected to the auditing
procedures applied in the audit of the basic financial statements, and accordingly, we express no opinion on it.

Our report is intended solely for the information and use of management of SSA, the Office of the Inspector
General, the OMB, the Government Accountability Office, and Congress and is not intended to be and should
not be used by anyone other than these specified parties.




Alexandria, Virginia
November 8, 2012




Grant Thornton LLP
U.S. member firm of Grant Thornton International Ltd
